<html>
<title> - OPTIONS FOR ADDRESSING THE CONTINUING LACK OF RELIABLE EMERGENCY MEDICAL TRANSPORTATION FOR THE ISOLATED COMMUNITY OF KING COVE, ALASKA</title>
<body><pre>[Senate Hearing 114-499]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-499

   OPTIONS FOR ADDRESSING THE CONTINUING LACK OF RELIABLE EMERGENCY 
 MEDICAL TRANSPORTATION FOR THE ISOLATED COMMUNITY OF KING COVE, ALASKA

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 14, 2016

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                       Printed for the use of the
               Committee on Energy and Natural Resources
               
               
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

21-974                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

 LISA MURKOWSKI, Alaska, Chairman

MARIA CANTWELL, Washington           JOHN BARRASSO, Wyoming
RON WYDEN, Oregon                    JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            JEFF FLAKE, Arizona
AL FRANKEN, Minnesota                STEVE DAINES, Montana
JOE MANCHIN III, West Virginia       BILL CASSIDY, Louisiana
MARTIN HEINRICH, New Mexico          CORY GARDNER, Colorado
MAZIE K. HIRONO, Hawaii              ROB PORTMAN, Ohio
ANGUS S. KING, Jr., Maine            JOHN HOEVEN, North Dakota
ELIZABETH WARREN, Massachusetts      LAMAR ALEXANDER, Tennessee
                                     SHELLEY MOORE CAPITO, West 
                                     Virginia

                                 ------                                

                    Colin Hayes, Staff Director
                  Patrick J. McCormick III, Chief Counsel
                   Brian Hughes, Deputy Staff Director
              Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                 David Brooks, Democratic General Counsel
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              

                           Opening Statements

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Hon. Maria. Ranking Member and a U.S. Senator from 
  Washington.....................................................    15

                               Witnesses

Mallott, Hon. Byron, Lieutenant Governor, State of Alaska........    17
Mack, Hon. Stanley, Mayor, Aleutians East Borough, Alaska........    23
Desiderio, Denise, Policy Director, National Congress of American 
  Indians........................................................    36
Trumble, Della, Spokeswoman, Agdaagux Tribal Council and King 
  Cove Corporation...............................................    47
Whiddon, Commander John, United States Coast Guard, Retired......    54
Whittington-Evans, Nicole, Alaska Regional Director, The 
  Wilderness Society.............................................    60

          Alphabetical Listing and Appendix Material Submitted

Alaska Wilderness League, et al.:
    Letter for the Record........................................    88
Cantwell, Hon. Maria:
    Opening Statement............................................    15
Desiderio, Denise:
    Opening Statement............................................    36
    Written Testimony............................................    38
Mack, Hon. Stanley:
    Opening Statement............................................    23
    Photo: 125" Crab vessel trying to dock in King Cove, Alaska..    25
    Photo: Icescape in King Cove, Alaska.........................    27
    Photo: 20" high dock in King Cove, Alaska....................    29
    Photo: Hoisting a patient in a crab pot to the top of the 
      dock in King Cove, Alaska..................................    31
    Written Testimony............................................    33
    Responses to Questions for the Record........................    89
Mallott, Hon. Byron:
    Opening Statement............................................    17
    Written Testimony............................................    20
    Response to Question for the Record..........................    88
Manchin III, Hon. Joe:
    Statement for the Record.....................................    91
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
    Map: State of Alaska.........................................     2
    Photo: King Cove, Alaska.....................................     4
    Map: Cold Bay, Alaska indicating location of airport runway..     6
    Written Statement............................................    11
Trumble, Della:
    Opening Statement............................................    47
    Photo: Pen Air plane that crash landed in King Cove, Alaska..    49
    Written Testimony............................................    51
Whiddon, Commander John:
    Opening Statement............................................    54
    Written Testimony............................................    57
    Responses to Questions for the Record........................    90
Whittington-Evans, Nicole:
    Opening Statement............................................    60
    Written Testimony............................................    62
 
   OPTIONS FOR ADDRESSING THE CONTINUING LACK OF RELIABLE EMERGENCY 
 MEDICAL TRANSPORTATION FOR THE ISOLATED COMMUNITY OF KING COVE, ALASKA

                              ----------                              


                        THURSDAY, APRIL 14, 2016

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:08 a.m. in Room 
SD-366, Dirksen Senate Office Building, Hon. Lisa Murkowski, 
Chairman of the Committee, presiding.

  OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM 
                             ALASKA

    The Chairman. Good morning, everyone. The Committee will 
come to order so we can consider an issue that is, I think it 
is fair to say, near and dear to this Senator's heart and an 
issue that is very important and critical to, not only the 
people of King Cove, but many throughout the State of Alaska.
    Today we are going to be taking up the matter of the 
continuing lack of reliable emergency medical transportation 
for the community of King Cove, Alaska and how we can work 
together to protect the health and safety of these people.
    For those who are not familiar with King Cove, I would ask 
that the Alaska map be held up for a second, just for 
situational awareness. Bring it over here, please.
    [The information referred to follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Okay, so you have the community of Anchorage that is 
sitting right here. King Cove sits right here, at the end of 
the peninsula, just at the beginning of the Aleutian Islands. 
King Cove is situated about 625 miles southwest of Anchorage, 
to put it into context. It is about 250 miles from Kodiak where 
our Coast Guard air station is located.
    When you think about proximity, 625 miles is one way to 
look at it, but given that there are no roads that connect it 
to anywhere else, the way that you get to somewhere else is to 
fly. However, the cost of a roundtrip ticket to Anchorage is 
$1,036, so if you are going to town, which is how we refer to 
Anchorage, for medical treatment or for groceries or whatever 
the need may be, it is a $1,036 round trip ticket. King Cove is 
far away, isolated, and expensive.
    Eighty-five percent of the King Cove residents are Alaska 
Native, Aleut, members of the Federally-recognized Agdaagux. I 
always mispronounce that Della, so you will have to correct me, 
but as I mentioned, as with so many of our communities, it is 
reachable only by plane or by boat.
    It is a beautiful place, and I want to show a few pictures 
now, just to put the community in context.
    [The information referred to follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     
    It is actually the same as we have over here, but as you 
can see, it is located right at sea level there, surrounded by 
two volcanic mountains. You approach the community of King Cove 
from the water side, but you come into a funnel situation with 
high mountains on both sides of you. It is incredibly scenic on 
a beautiful day, as you can see in the picture, but the region 
is prone to quickly moving weather, high winds, low clouds, 
dense fog, and other conditions that can make flying and 
boating extremely dangerous.
    Planes can land at King Cove's gravel airstrip. It is a 
3,500 foot strip, so only small planes can come in and out. 
However, as these small planes come in, they are dealing with 
low visibility, strong turbulence, as the wind comes down off 
the top of the mountain, literally pushing an aircraft down, 
and notorious gale force cross winds. And that is just in the 
air.
    If you are on the sea, mariners can be looking at extremely 
inhospitable conditions, such as 12-foot-high seas.
    If you are a local resident, most of the time you do not 
have any desire to be flying when these weather conditions are 
so ugly and severe, but there are times when you cannot avoid 
traveling. When you have a medical emergency, you have no 
choice but to try to get to a hospital, and that hospital would 
be located in Anchorage.
    There is a clinic in King Cove, and they do a phenomenal 
job, I might add. However, there are certain things that you 
cannot do in a clinic. There is not an anesthesiologist 
anywhere in the region; therefore, if you are a trauma victim, 
or if you are a woman in early stages of labor, or if you have 
any major illness, the clinic is not where you can receive the 
care you need. So what do you do?
    Well, the first step is to transport those who are sick or 
injured or in need of other medical care to the community of 
Cold Bay. You say, wait a minute, you just said transport them 
to Anchorage. Well, Anchorage is 625 miles away. The way to get 
them to safety is to take them to Cold Bay, where there is a 
10,000-plus foot runway, one of the longest runways in the 
State of Alaska, which is located just across the bay. So you 
have King Cove that sits down here, and across the bay is Cold 
Bay, where you have your 10,000-plus foot runway.
    [The information referred to follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
     
    This is not only a runway that is accessible with better 
weather conditions. When I say that the weather is down in King 
Cove, it is down in King Cove over one-third of the year. Not 
that there is just bad weather, but the airport is not 
accessible. Over 100 days a year the King Cove airport is not 
accessible.
    The alternative in Cold Bay, just across the bay, it is 
much less. It is only around ten days a year that their airport 
is shut down and the runway is inaccessible, making it so 
dramatically, dramatically different in terms of its access.
    Since the 1940s the Alaska Native people of King Cove have 
sought safe, reliable access to reach Cold Bay during medical 
emergencies. Cold Bay is a community that came about in World 
War II for air traffic in and out as we accessed the Aleutians. 
It was literally built for its airport. Today, there are less 
than 100 people that live in Cold Bay; they are mostly Federal 
or State employees.
    The community of King Cove, a community of close to 1,000 
people, somewhere between 900 and 1,000 people, has been there 
for maybe 4,000 years or so. King Cove is where the native 
people have been for a millennia.
    So again, as we are searching for those avenues to provide 
for a safe route to medical care or just to access the rest of 
the state, the answer is not to build a longer runway in King 
Cove. You will still be faced with the geography and the 
weather around you. A longer runway would simply expose both 
pilots and their passengers to some of the worst flying 
conditions in the country, and I think you will hear some of 
that testimony this morning.
    The answer is not to buy a large ferry and construct new 
docks at both King Cove and Cold Bay because it is not 
appropriate to expect injured patients and their doctors to 
suffer through a multi-hour long trip in rough seas or perhaps 
to be shut out by the ice that comes into the bay. The answer 
is not a new helicopter, which would be too dangerous to fly in 
most conditions and too expensive to operate. The answer is 
also not a hovercraft. This has been tried, and it has failed. 
It could not operate when needed most when the weather was most 
foul and simply cost too much to maintain. Lastly, the answer 
is not the U.S. Coast Guard. As much as we love and support our 
Coast Guard, being a medevac to a community is not part of 
their overall mission, although they will come when called, and 
they have.
    You will again hear testimony to that fact that we continue 
to have our Coast Guard men and women put their lives on the 
line and do so willingly, but these rescues are not part of 
their core mission and are not safe for anyone. They are also 
enormously expensive for the U.S. taxpayer. When the Coast 
Guard has to come in for a medevac, it can be $200,000 to 
250,000, which is not an efficient use of taxpayer dollars.
    The right answer is to do what virtually every other 
community in America would do, and that is to build a simple, 
lifesaving road, a connector road. In this case, it is building 
an 11-mile, one lane, gravel, non-commercial use road. I say 
that so many times, I can say it in my sleep--an 11 mile, one 
lane, gravel, non-commercial use road to connect the existing 
road from King Cove through the Izembek area to the connector 
road that allows access into Cold Bay.
    We already have about 19 miles of existing roads that have 
been built outside King Cove and Cold Bay. You will often hear 
that the area within the refuge is untrammeled wilderness. 
Well, it may have been untrammeled wilderness prior to World 
War II, but during the war, there were roads built. There are 
over 50 miles of roads that are contained within the refuge 
area currently. Currently.
    You might ask if those roads are being used at all? Well, 
they are being used by our Fish and Wildlife folks, and they 
are being used by hunters. So the question is, why haven't we 
been able to get this simple road built?
    The reason is that we cannot get permission from our own 
Federal Government to do so because this lifesaving road will 
cross a small corner of the Izembek National Wildlife Refuge 
that is designated as Federal wilderness; however, we have 
routinely allowed for what they call ``cherry stem'' roads to 
enable transit to move through these wilderness areas. We have 
done it before. The only difference here is that cherry 
stemming would actually cure an injustice, which is keeping 
these people from accessing Cold Bay, rather than preventing 
one, as we often try to do when we are designating wilderness.
    We have, within this Committee, passed legislation, which 
was overwhelmingly approved by Congress. President Obama signed 
it into law back in 2009, and it would have allowed the 
Department of Interior to approve a road for King Cove.
    At a 300 to 1 exchange, it was not the best deal for the 
State of Alaska or for the people of King Cove. The Federal 
Government was going to get 300 times more than the State of 
Alaska was giving up. To obtain this road, the native people 
were willing to give up a portion of their lands that they 
received in a settlement under ANCSA. The exchange was going to 
be 206 acres that we would need for the corridor in exchange 
for 61,000 acres of state lands and native lands; however, 300 
to 1 was still not good enough, and Secretary Jewell rejected 
that offer. She did so on the day before Christmas Eve. I do 
not forget that Christmas.
    She decided that using just .07 percent of the refuge as a 
cherry stem to help save the lives of people who live there, 
while simultaneously expanding the refuge by tens of thousands 
of acres somehow was not worth it. It just was not worth it, 
she said.
    She traveled out with me to King Cove, and she listened to 
the people of King Cove. I was there and I heard the exchanges 
back and forth. I heard what the people said to her. I heard 
what the children said at the school assembly when they told 
her they were frightened to fly because their auntie had died 
or their grandma had died or they had a neighbor who had been 
in a crash.
    The Secretary stated that she had listened to their 
stories, but she also needed to listen to the animals. That is 
what drives me with this because we have a responsibility to 
the people that we represent. We have a responsibility for the 
land as well, a responsibility we do not take lightly, but 
think about the people that live out there. You will hear 
testimony from Stanley Mack and Della Trumble whose families 
have lived there forever. Ask them about how they care for the 
land, how they care for the animals, and how they have been 
stewards, as the Aleut people, of the land. I am not too 
worried about making sure the animals are taken care of because 
I know that the native people have done that for generations.
    The other irony here is, again, this decision was made 
despite the fact that there are roads existing within the 
refuge. They have been there since World War II, and no lasting 
impacts on any species that lives there has occurred as a 
consequence of those roads.
    Additionaly, if the decision was made to protect the birds, 
it is a little bit ironic that on Fish and Wildlife's website 
they boast about the recreational hunting for the area's water 
fowl. The Brant that we are supposedly protecting are also 
available for hunting. It is one of those issues that you look 
at and you say there are so many ironies here that it just is 
not right.
    This decision was made despite the fact that there are 
already countless roads in refuges across the country. The 
State of Alaska has pointed out that we have roads in refuges 
in Florida, Maryland, Texas, Louisiana, North Carolina, 
Arizona, Montana, Missouri, Illinois, New Mexico, Nevada and 
Washington; so this is not unprecedented.
    Again, you will hear testimony from the folks here today 
that Interior's decision ignored the fact that human lives have 
been lost in King Cove. Nineteen people have died since 1980, 
either in plane crashes or because the sick and injured could 
not get out in time.
    The decision that Interior has made is cynical and callous. 
It devastated the people of King Cove, who truly believed that 
help was finally on its way. It shattered the trust 
responsibility that the Federal Government is supposed to have 
to our nation's native people. It has left the people of King 
Cove in essentially the same position that they have been for 
decades, which is at the mercy of the elements, left to suffer 
pain, anxiety and sometimes even death in the event of a 
medical emergency.
    King Cove has now seen 42 medevacs since the Secretary 
rejected this proposal back in December of 2013. The U.S. Coast 
Guard has been called in on 16 of those medevacs, risking the 
lives of their crew and others, and patients have suffered 
terrible pain and trauma. There was a man, a fisherman, who 
dislocated both hips when a 600-pound crab pot fell on him. We 
have seen elderly residents who have struggled with internal 
bleeding or sepsis or heart attacks and an infant boy who could 
not breathe. The stories just go on and on and on.
    We are holding this hearing this morning to ensure that the 
people of King Cove finally have an opportunity to again state 
their case on the record as to why they need reliable access to 
emergency medical transportation, something that virtually 
every other American community has without ever stopping to 
think how important, how valuable it is.
    I will remind people, King Cove is a long, long way away, 
and most people in this country will never have an opportunity 
to go there. However, as remote as they are, as far away as 
they are, and as small as this community is, it is still an 
American community, and they are not asking for much.
    This is an opportunity to hear directly from those in need, 
to let them make their case in their own words to those who 
hold the power to help them. While we will be respectful of 
everyone's viewpoint expressed today, it is clear that the best 
answer, the only answer, the answer that should have been 
chosen a long time ago, is a lifesaving road.
    For the people of King Cove, this issue has gone on for 
decades. It may be new to some colleagues here, and I thank you 
for listening and for your concern. I think you would share my 
concern if people in your states were faced with an issue such 
as this, despite the presence of an alternative. You will hear 
the argument that well, Alaska is difficult. There is weather 
all over and stuff happens, and because it happens in other 
places, King Cove should be no different. However, the 
difference with King Cove is that there is an answer that lies 
just miles away, one of the longest runways in the State of 
Alaska, and they can get there if they have an 11-mile 
connector road. That is the difference between the situation in 
King Cove and some of the other places where it is tough. I am 
not going to sit back and just hope that we do not have any 
more emergencies during bad weather because hope is not a 
policy. I am going to make sure that the people of King Cove 
are heard.
    So again, I thank you for enduring my longer opening 
statement. As you can tell, when it comes to helping protect 
human lives and preventing needless human suffering, I am going 
to do what I can.
    With that, I will ask my colleague, Senator Cantwell, to 
make her comments. I appreciate her being here this morning. 
Thank you.
    [The prepared statement of Chairman Murkowski follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
 STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Well thank you, Madam Chair. I welcome 
the witnesses here today, including your Lieutenant Governor 
and many of the people I've seen in Alaska. My best wishes to 
the Governor of Alaska, and I would like to thank him for this 
sweatshirt from Cantwell, Alaska, which I mentioned I want to 
visit someday, so thank you so much for that.
    I know this question is something the Chairman has felt 
strongly about, and I know this issue has been debated for many 
years. It is the subject of longstanding concern, and I think 
that's why so many of you are here today.
    Over the years a number of options have been proposed for 
addressing the health and safety of King Cove's population, as 
the Chairwoman mentioned, including a hovercraft, new marine 
transport, an aluminum landing craft, a passenger ferry, 
upgrading the medical clinics, upgrading the airstrip, 
providing a heliport, and of course, most of the attention has 
been focused on building a road through the National Wildlife 
Refuge.
    Some of these proposals have received federal attention, 
including the $37 million that was appropriated in 1999 for a 
number of upgrades, including a hovercraft which has been 
discontinued, road construction for King Cove to a new dock 
facility, improvements to the airstrip and significant upgrades 
to the medical clinic. All of the transportation options have 
drawbacks, and all involve significant funding requirements, so 
I think the record is clear that there are no simple solutions 
here for addressing the real issues at King Cove.
    When a land exchange in the National Wildlife Refuge was 
first proposed several years ago as a means of allowing 
construction of the road through the refuge, there was 
considerable debate about the relative environmental importance 
of the Izembek National Wildlife Refuge and the effect the road 
would have on the wildlife population and the wilderness 
character of the area.
    In an effort to better understand the significance and 
potential effects of a road, Congress passed the Omnibus Public 
Lands bill in 2009 which authorized the Secretary of the 
Interior to enter into a land exchange that would have allowed 
for construction of a non-commercial gravel road through the 
refuge, but only if the Secretary of the Interior first 
conducted an environmental review and determined that the 
exchange would be in the public's interest.
    After a four-year process of developing the environmental 
impact record for the proposed exchange, a process begun with 
the former Secretary Salazar was completed by Secretary Jewell. 
The Department of the Interior issued a record of decision in 
December 2013. The Interior Department's environmental impact 
statement found that the Izembek National Wildlife Refuge is 
globally significant and that the landscape supports an 
abundance and diversity of wildlife resources. I'm sure we're 
going to hear about that from Ms. Evans today.
    That wildlife is unique to the refuge, and years of 
analysis shows us that it would be irretrievably damaged by 
construction and operation of the proposed road. The record of 
decision noted that the refuge provides invaluable and 
potentially irreplaceable nesting and feeding areas for shore 
birds and water fowl, including important habitat for 98 
percent of the world's Pacific Black Brant population and the 
only non-migratory population of Tundra Swans in the world.
    The record of decision also noted that the Interior 
Department would continue to work with the State of Alaska and 
local officials on viable alternatives to the road to ensure 
continued transportion improvements for the residents of King 
Cove.
    Last year, the Army Corps of Engineers issued a report 
assessing non-road alternatives for emergency access, including 
the use of ice-capable marine vessels, airport upgrades, and 
the development of a heliport. I understand that many in the 
local community do not support these proposals. I'm sure we are 
going to hear these concerns as part of our discussion, but 
hopefully this report furthers our discussion about possible 
options. That is why I think we're here today.
    We have a panel of witnesses, most of whom traveled a long 
way to come testify, so I look forward to hearing their 
testimony and talking about various transportation options 
during this morning's hearing.
    And with that, I thank the Chairwoman for the hearing.
    The Chairman. Thank you, Senator Cantwell.
    Let's begin the panel here this morning. I recognize that 
we have a vote scheduled at 10:30, so it is my intent to try to 
compress everything so that we can conclude this hearing by 
10:30 or in about an hour.
    The panel will be led off this morning by the Honorable 
Byron Mallott, Lieutenant Governor for the State of Alaska. 
Lieutenant Governor, I so appreciate you making the long trek. 
I know you just came in last night and it is a quick turnaround 
for you, so the fact that you have traveled to join us here 
this morning on behalf of the Governor and the State of Alaska 
is greatly appreciated.
    After the Lieutenant Governor speaks, we will hear from the 
Honorable Stanley Mack, who is the Mayor of the Aleutians East 
Borough, the borough where King Cove sits, and a longtime 
leader within the region.
    He will be followed by Denise Desiderio, who is the Policy 
and Legislative Director for the National Congress of American 
Indians and has been long active and very helpful on this issue 
and many others.
    Della Trumble is also with us today. Della is no stranger 
to the community or to the Committee as she has been here in 
the past. I appreciate you making this long trip. Della is on 
the Agdaagux, and I am going to have you correct me with the 
pronunciation, Tribal Council and King Cove Corporation. Thank 
you, Della, for being here.
    Next we will hear testimony from Commander John Whiddon, 
who is retired from the United States Coast Guard. We thank you 
for your service and for being here this morning.
    We also have Nicole Whittington-Evans, who is the Alaska 
Regional Director of The Wilderness Society. Thank you for 
joining us as well.
    With that, Lieutenant Governor, you can lead the panel off. 
And again, thank you.

STATEMENT OF HON. BYRON MALLOTT, LIEUTENANT GOVERNOR, STATE OF 
                             ALASKA

    Mr. Mallott. Thank you very much, Senator Murkowski, 
Senator Cantwell, members of the Committee. I have a reading 
copy here. We have submitted testimony for the record, but I'm 
not going to follow it.
    Stanley Mack and I went to school together during the days 
of required boarding school attendance in Alaska by Alaska's 
native children. We still call ourselves kids when we spend 
time together. He went to Mount Edgecumbe. I went to Sheldon 
Jackson.
    Sheldon Jackson was a Presbyterian boarding school. Mount 
Edgecumbe was a government boarding school. We kid one another 
that one of the things we at Sheldon Jackson had to do was to 
pray for those heathens at Mount Edgecumbe in order to make 
sure that they would lead good lives. And of course, if Stanley 
Mack is any example, they certainly have done that.
    I was at breakfast this morning at my hotel. A group of 
Wyoming ranchers were at that hotel, and we had a brief 
breakfast conversation. To sum it up, they could have given my 
testimony here, and I could have given theirs at their event 
somewhere else in the Capitol.
    First of all, I want to be very clear that the State of 
Alaska supports the road, that it was a party to the trade. It 
has been involved in every effort to be responsive to the need 
for the road and the reasons therefore and will continue to 
maintain that urgent support.
    I want to talk a little bit about what is contained in my 
testimony. I grew up, was born and raised, in the small village 
of Yakutat on the Gulf Coast of Alaska. As opposed to King 
Cove, we were blessed during World War II with the construction 
of an all-weather airport within very close driving distance to 
our town, and we remain blessed today. Yakutat is, I believe, 
the smallest municipality in the United States that has full 
size jet aircraft service every single day. We do not take it 
for granted. We still, every day, thank God for that reality. 
We are among a very few communities in Alaska so blessed.
    King Cove, and my son spent a summer out there working for 
the Bureau of Indian Affairs, is a place that requires that 
road, without question.
    I want to talk a little bit about my growing up in Yakutat. 
We are, on one side, surrounded by Glacier Bay National Park, 
on the other, by the Wrangell St. Elias National Park. We are 
also within the Tongass National Forest.
    The leadership in my community was among those that fought 
hard for the creation of many of the federal land 
classifications in our state. We did it with the clear 
assurance, at the time, that our way of life would be 
protected, and that we, as residents of the forest, being 
surrounded by these federal land classifications, would have 
our way of life protected.
    We fought hard to create what are now routinely called in 
the Act preserves within those federal classifications. The 
preserves were those areas in which local people could continue 
to practice their lifestyles, could continue to have access to 
resources that had sustained them for thousands of years, in 
most instances for local native peoples, but also to allow an 
emerging Alaskan lifestyle that embraced anyone who came to our 
communities and wanted to make a life. Those preserves 
contained hunting camps, fishing camps, and, in some instances, 
grandfathered small commercial operations.
    Today, they're all gone after explicit promises that they 
would be maintained. They're all gone in the public policy 
rationale of these preserves. These national classifications 
are required to meet the needs of all Americans. They are 
required to meet the continuing need for habitat of species. 
They are required for their intrinsic value to our nation for 
all of the reasons that we typically know, and we agree with 
that. We agree with that 100 percent, but one of the things 
that I found, Senator, in my entire life in Alaska, my entire 
working life in Alaska of almost now 50 plus years, it is very 
easy to forget human beings.
    In dealing with issues in the Tongass National Forest, that 
the easiest way to create a public policy recognition, to 
create a public policy tenant that something is in the national 
interest is to completely ignore the local human interest. And 
we live there. We die there. Our bones, our ancestral home for 
thousands of years, are in that place. Our reality is often 
completely ignored, and other proxies for the national interest 
are posed.
    We don't talk about the Tongass National Forest anymore as 
a place for jobs, as a place for economic opportunity for those 
who live there. We talk about the Tongass National Forest in 
the context of salmon. We reduce or we take away the human face 
of a place.
    In this nation, in order to preserve the beauty of our land 
which we in Alaska, which we who live there, which we who know 
it intimately, wish to maintain also. In order to preserve 
something that is called the greater good our lives are 
minimized, marginalized and in many ways, consciously, 
consciously, determined to be unimportant to the point where we 
become faceless. We are ignored by establishing something else 
as the critical factor in the importance of that place. That's 
the case in King Cove. It's the case in my community. It's the 
case across Alaska.
    We have to, somehow, create the dialogue, create a 
circumstance in which the face, the voice, the reality of the 
existence and the desire, the aspiration of Alaska's people on 
their own lands become an essential element of the public 
policy debate about the utilization and future of public lands 
in Alaska. It is that simple.
    So others will tell you about the details. You have 
articulated them, Senator, so eloquently. I'm sorry I moved 
away from the details of the discussion that we're having here.
    I also want to state, just very quickly, that I've seen the 
healing power of the land. We have in my community places where 
50 years ago, 60 years ago, even in my lifetime, places are 
built and go away and the land reclaims. And those that were 
displaced are back.
    The notion that somehow the land is so extremely fragile, 
so incapable of healing itself, the arrogance that somehow we 
have to make judgements about the reality of the lives and the 
strength of the existence of plants and animals, that they are 
so fragile that they never recover, that they never 
accommodate. We live it every single day. We see that 
accommodation. We see that change.
    Certainly we need appropriate and timely public policy to 
frame our ability to manage Alaska's lands and other lands, but 
we also need to recognize that we are as important on this land 
as anything else. We probably are the most fragile, the least 
capable of being able to accommodate the kinds of changes that 
are before us without the assistance of the Federal Government, 
the Congress of the United States and the work of the State of 
Alaska on our behalf.
    The point I want to make is that, particularly, those who 
live in rural and remote Alaska, that those living, breathing 
human beings, who have been there for generations and those who 
have arrived yesterday and choose to live and desire to live 
for continuing generations, that their reality, their 
importance, their aspirations, their desire for their ability 
to live on that land, needs somehow to be recognized and 
brought into a proper balance that does not exist today.
    Thank you.
    [The prepared statement of Mr. Mallott follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     
    The Chairman. Thank you, Lieutenant Governor, this is why 
we are here today, to give a voice to these people.
    Thank you.
    Mayor Mack, welcome.

STATEMENT OF HON. STANLEY MACK, MAYOR, ALEUTIANS EAST BOROUGH, 
                             ALASKA

    Mr. Mack. Good morning, Senator and Chairman Murkowski and 
members of the Committee. My name is Stanley Mack, and I'm an 
Aleut. I was born and raised in King Cove. I've been the Mayor 
of the Aleutians East Borough for the last 14 years.
    King Cove is the second largest community in the borough 
with a population of 900. It's my privilege and responsibility 
this morning to address this Committee on behalf of all of King 
Cove and the Aleutians East residents and to say thank you, 
Senator Murkowski, for being such an incredible champion on 
this issue and this cause.
    Simply stated, the residents of King Cove continue to 
desperately need a dependable, safe and affordable means of 
transportation access to Cold Bay airport which is our lifeline 
to the outside world, particularly for medical and health 
needs. The only logical form of transportation access is a one 
lane, 11-mile, gravel road that will connect King Cove to the 
Cold Bay airport.
    Those of you who don't know, Cold Bay's airport is an 
anomaly in rural Alaska. It's an all-weather airport, as the 
Senator has spoken about, having a ten-foot main runway, a 
6,500-foot cross wind runway. It was built by the U.S. military 
as the one in Yakutat in 1942 as part of the Aleutian campaign 
in World War II. It's one of the most accessible all-weather 
airports in Alaska and open on a 24/7 basis 365 days a year.
    Contrast this airport to the King Cove airstrip which is 18 
air miles away and has a 3,000 foot gravel runway available 
only during the daylight hours.
    The King Cove airstrip, and I use the term airstrip because 
that's all it is, is precariously located between two mountain 
peaks. And as you can see the peaks that we have to fly through 
here on some of the pictures. Flights are subject to extreme 
weather including turbulence throughout the year, high winds, 
thick fog and snow squalls resulting in cancellations or delays 
of flights for 100 days a year.
    Many King Cove residents have a fear of flying because of 
these conditions. We'll show you pictures of reasons why. Our 
weather is some of the most treacherous in the world with 15 
foot seas in winter and winds well over 50 miles an hour 
throughout most of the year. We're known as the place where 
storms are born.
    We tried to make the hovercraft work which is going to be a 
topic of discussion, I'm sure, to link King Cove and Cold Bay, 
but after three hours of operations we realized our weather and 
operational problems and a required annual subsidy of more than 
a million dollars made it an unacceptable option. As the 
Borough Mayor I had the fiduciary responsibility to suspend the 
unsustainable operations.
    As I considered all my options and responsibilities, I 
sincerely believed the passage of the 2009 Omnibus Public Lands 
Act would finally resolve our transportation access problem to 
getting to Cold Bay airport. But after Secretary Jewell's 
decision in December of 2013 to not authorize the road, we 
continue to find ourselves at the mercy of our high volatile 
wind and marine conditions and topographic constraints.
    I'm also very disappointed and frustrated that the 
Secretary's decision was based on a very biased and 
scientifically flawed EIS process completed by the U.S. Fish 
and Wildlife Service. It eventually became very clear to me 
that our local knowledge of the environment did not matter to 
the Federal Government. It also became very clear to me that 
any trust responsibility for indigenous Americans for 
government-to-government relationships were just a bunch of 
fancy words.
    I'm also very frustrated that critics still continue to 
talk about other forms of marine infrastructure and vessels 
that they believe will adequately address our problems. These 
are suggestions that are not viable. We cannot mitigate the 
forces of nature in our marine environment. I have been a 
fisherman for over 60 years in this area and I know about the 
never ending challenges of the oceans, bays, vessels and the 
weather.
    I have a number of photos to show the Committee that 
illustrate some of the challenges and weather conditions and 
when to contend to dealing with marine medevacs out of King 
Cove to the Cold Bay dock.
    Here's a picture of a 125-foot crab vessel trying to get 
near the dock in Cold Bay. It was unable to do that because of 
the weather conditions. The wind was too high and the seas were 
too rough.
    [The information referred to follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
  
    Here's a picture of the icy conditions that no one seems to 
want to put on the forefront to show you that this dock is a 
quarter of a mile from the beach and the ice pack is nearly a 
half a mile off there. If you were to put any kind of 
infrastructure in the front of that dock it would stop the flow 
of the tidal action to where that ice will remain there for a 
long period of time.
    [The information referred to follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The dock is at least 20 feet high, and strapping an injured 
patient in a gurney and hoisting them up from the dock, up to 
the dock of the boat it can be as much as 25 feet.
    [The information referred to follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    It's always a scary situation. This is basically what we 
have to do or putting elders in a crab pot and using a crane to 
hoist them to the top of the dock is frightening.
    [The information referred to follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
     
    Most people don't realize that both the high winds and ice 
can prevent us from using boats or barges or large efficient 
vessels from accessing the Cold Bay dock. We must, I emphasize 
must, have this modest one lane, gravel road for 
transportation.
    I respectfully ask this Committee to support our road 
alternative and allow us the dignity and respect to have what 
most American citizens simply take for granted.
    In closing I want to say thank you, Senator Murkowski, for 
caring so much about our lives and working with conviction and 
passion in helping us to achieve this needed road to access the 
Cold Bay airport.
    I respectfully ask all the Committee members to support 
Senator Murkowski's effort to authorize this road and 
significantly enhance the quality of our lives. Our lives 
matter.
    Thank you.
    [The prepared statement of Mr. Mack follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    The Chairman. Thank you, Mayor.
    Ms. Desiderio.

    STATEMENT OF DENISE DESIDERIO, POLICY DIRECTOR, NATIONAL 
                  CONGRESS OF AMERICAN INDIANS

    Ms. Desiderio. Good morning, Chairman Murkowski and Ranking 
Member Cantwell. It's a pleasure to sit before you today and 
testify on behalf of the National Congress of American Indians 
(NCAI).
    This is an important issue, not just for the residents of 
King Cove, Alaska but for all of Indian Country. NCAI is in 
full support of providing a solution to the Agdaagux Tribe and 
the residents of King Cove in providing them a safe, reliable 
and consistent access to medical treatment. The reason is 
simple. NCAI views this as, first and foremost, a matter of 
public safety.
    As long standing members of the Indian Affairs Committee, 
you know full well the needs of health care in Indian Country. 
It's not unusual for tribal communities to be so isolated and 
rural as to make health care, that we take for granted here in 
DC and in other parts of the country, almost impossible for 
tribes to obtain. But even with that, the situation stands out 
in Indian Country. There's no place else in Indian Country 
where tribal members need to fly over 600 miles to receive full 
health care. There's no place else where weather conditions 
will shut down complete access to health care for tribal 
members.
    You've stated the statistics very well, but I think what I 
want to focus on is something that Governor, or Lieutenant 
Governor, I've already elected you, that the Lieutenant 
Governor brought up in that these are conditions where tribal 
members and the residents of King Cove suffer from broken 
bones, they're in childbirth, there's internal bleeding. When 
weather conditions shut down these airports they may wait hours 
or even days to receive health care. Even in Indian Country 
this is an extreme situation that we don't feel can be ignored 
and that we think has to be fixed.
    NCAI's membership has long supported road access for King 
Cove. As early as 2007 we passed a resolution supporting the 
land exchange legislation to build a road, and following that 
in 2009 Congress overwhelmingly supported that legislation.
    Unfortunately, we're still waiting for the road to be built 
in King Cove and mostly due to concerns with the disruption 
that building a road through the Izembek National Refuge would 
cause. The 2013 decision by the Secretary of the Interior to 
deny the road was based on a NEPA process that focused solely 
on the natural environment but failed to take into account the 
health and safety needs of the residents of King Cove.
    Following that decision NCAI's members spoke again. In 
March of 2014 we passed legislation again supporting land 
exchange legislation, and I want to point out that in March of 
2014 was an emergency resolution. It's not often that NCAI acts 
on resolutions at our Executive Council winter session because 
we usually pass those resolutions during our membership 
meetings. But our board, NCAI's board, felt so strongly that 
this was a resolution that was emergency in nature and national 
in scope that we passed in March 2014 a resolution supporting 
the residents and the Agdaagux Tribe of King Cove.
    Again, in 2015 we passed a subsequent resolution supporting 
the need for a road, and the reason we wanted an additional 
resolution was because we wanted our general membership to 
speak on it too. This is an issue that has been brought up by 
our board, by our members of our board from Alaska, and by our 
membership throughout Indian Country as one of an injustice 
that needs to be fixed.
    I want to make sure that the Committee understands NCAI 
does support and respect the Secretary's responsibility to 
maintain the refuge. The refuge is a diverse and natural 
habitat that does deserve the highest protections; however, the 
Aleut people were the first stewards of this land and they've 
lived on and off of these lands for over 4,000 years. They were 
here before the establishment of the refuge, and they have the 
most at stake in protecting the environment and the wildlife.
    You've mentioned the great concessions that the tribe and 
the State of Alaska have made to make this road a reality. And 
you know, 206 acres in exchange for over 60,000 acres, it's a 
great concession by the state, by the tribe. And yet, we still 
don't have a road that will provide the basic healthcare needs 
of the citizens of King Cove. I think that's all we're asking 
for here.
    I want to make sure that this Committee understands that 
NCAI is in full support of a road to King Cove and that we 
consider this a matter for the trust responsibility.
    What we're asking is the Secretary of Interior to uphold 
her trust responsibility to tribal governments and provide the 
health care that is required as part of that trust 
responsibility for the residents of King Cove.
    Thank you.
    [The prepared statement of Ms. Desiderio follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    The Chairman. Thank you. Not only do we appreciate your 
comments, but that of the full NCAI. So thank you very much for 
that.
    Della Trumble, welcome back.

    STATEMENT OF DELLA TRUMBLE, SPOKESWOMAN, AGDAAGUX TRIBAL 
               COUNCIL AND KING COVE CORPORATION

    Ms. Trumble. Thank you.
    Good morning, Senator and Chair Murkowski, Ranking Member 
Cantwell and members of the Committee. My name is Della 
Trumble. I am an Aleut. I was born and raised in King Cove, and 
I continue to live there.
    The residents of King Cove love our community. It is our 
home, and we have a special place in our hearts for you, 
Senator, for your continued support. We very much appreciate 
it.
    Today I'm speaking on behalf of all the shareholders of the 
King Cove Corporation and as a member of the Agdaagux Tribe of 
King Cove and for all other residents in King Cove. I'm also 
here speaking as a mother, an Alaskan and a citizen of the 
United States.
    I'm deeply connected to the land you know as the Izembek 
Refuge through my ancestors who've lived and fed themselves on 
this wilderness for over 4,000 years. It's a part of who we are 
today. Our culture and our respect for our natural environment 
will never allow us to damage the refuge. We were born and 
raised to only take what you need, to always have a renewable 
resource.
    I've lived this road issue now for 35 years of my life. I 
was a young lady at one time when I first came back here for 
this. I will confess to being a bit tired to keep coming back 
for this battle, but I will not stop until it is resolved.
    This is at least my 25th trip to Washington to testify, 
lobby and advocate for this road to allow for a safe, 
dependable and affordable transportation access from King Cove 
to the all-weather airport in Cold Bay. Our need for this very 
modest road connection to Cold Bay airport is essential for 
medical and health needs, for a sustainable future and just the 
piece of mind of safe transportation.
    We sincerely thought the passage of the 2009 Omnibus Public 
Lands Act was a final decision needed to authorize this road. 
The community remains stunned by Secretary Jewell's decision to 
deny us the road; however, her decision did not totally 
surprise us because when she visited King Cove in August of 
2013 she informed us that she was there to speak on behalf of 
the Izembek birds and animals which have no voice.
    In response to that comment, our Police Chief and lifelong 
resident, Robert Gould, politely told the Secretary it was his 
responsibility to speak on behalf of all King Cove residents 
and those who have lost their lives and those that continue to 
endure medical and health challenges because of the community's 
transportation access problem.
    How much more do we need to endure, particularly when there 
is such a reasonable, dependable and affordable solution to our 
transportation access problem to the Cold Bay airport?
    We desperately need the ten mile, one lane, gravel road to 
connect the two communities for us to get to the Cold Bay 
airport. This road connection will drastically improve our 
ability for emergency and routine medical and health care and 
significantly upgrade our overall quality of life. Why is this 
simple concept so difficult for some people to accept?
    Since December 23rd, 2013 when Secretary Jewell said no to 
our road, we have had 42 medevacs out of King Cove to the Cold 
Bay airport. And this is a period of over 28 months, 42 
medevacs. Thank God for the U.S. Coast Guard being available to 
help out for 16 of those medevacs when no other option could 
work.
    But we never take the help and availability of the Coast 
Guard for granted. We are very thankful for them to be able to 
help us. We know that it's not their mission or responsibility 
to risk their lives to make these heroic rescues, and trust me 
when I say, we pray that they make it to Cold Bay.
    No mother should ever have to witness their own precious 
daughter crash land at the King Cove airstrip due to our highly 
unpredictable turbulence and down drafts from the volcanic 
mountainous terrain. That picture of that young lady is my 
daughter with the blue coat.
    [The information referred to follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
     
    It was the scariest few minutes of my life as I sat there 
watching the plane being pushed toward the runway, and hitting 
the runway, and it's not something any parent should ever have 
to witness or ever have to do. And there really, in my mind, is 
no reason for it. The plane was basically pushed downward by 
the wind and crashed into the runway without the landing gear 
down, as you can well see. It basically looks like someone took 
the props with the curling iron, and it was very frightening.
    Similar experiences, both from flying and on the water, 
people have continued to encounter every day, and this must 
stop. Truly there is no reason for this. We know we continue to 
live on borrowed time with our transportation access, and every 
time people get on an airplane we fear that something is going 
to happen and more people will die or be harmed.
    Please know we will never quit until we are successful in 
our quest to achieve a safe, dependable and affordable 
transportation to our solution for our residents. We know the 
only logical solution is a modest, non-invasive, one lane, 
gravel road.
    Finally, we are fortunate to have Senator Murkowski's 
commitment, common sense and passion to help us achieve this 
solution.
    On behalf of all of King Cove, Aleuts and all other 
community residents, we respectfully ask Congress to authorize 
the road and to do so without the involvement of the Department 
of Interior.
    If I may also state that a couple days ago we were at the 
Interior building, and we had a meeting over there. As you go 
in through security there's a plaque on the wall that shows 
former Secretary Udall and I pointed out to Stan, Stanley Mack, 
when you read that it basically says to protect the land, the 
waters and the wilderness. The very next line says to empower 
American Indians and Alaska natives.
    We are a part. They need to help protect us also and to 
help us work out a solution to this problem. We very much would 
appreciate it. Thank you.
    [The prepared statement of Ms. Trumble follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    The Chairman. Della, thank you.
    Twenty-five years. That is a long time to be working an 
issue.
    Commander Whiddon, welcome to the Committee.

STATEMENT OF COMMANDER JOHN WHIDDON, UNITED STATES COAST GUARD, 
                            RETIRED

    Mr. Whiddon. Thank you, Madam Chair and Ranking Member 
Cantwell.
    My name is John Whiddon. I'm a retired U.S. Coast Guard 
Commander and a former helicopter pilot living in Kodiak. I'm 
also a member of the Kodiak City Council.
    I want to digress for just a second, as the Lieutenant 
Governor did, and kind of explain why I'm here. I was at a 
recent SWAMC meeting, for those that don't know that, Southwest 
Alaska Municipal Conference, and I had an opportunity to talk 
to Rick Gifford and Mr. Mack. They were talking about the road.
    I mentioned that 37 years ago I was involved in a rescue, 
actually it was a recovery of bodies for a plane that crashed. 
And there's a reason I mention that, not because of the road 
but because 37 years later, as I'll explain in my testimony, 
there's portions of that particular flight that are still vivid 
in my mind.
    So during my 20-year Coast Guard career I spent at least 
ten years in Alaska flying in Sitka, Southeast Alaska, Kodiak 
and I flew throughout the Aleutian chain on both search and 
rescue missions and other missions for the Coast Guard. I 
became very familiar with the Cold Bay region as I had numerous 
occasions to fly in and out of Cold Bay, usually on my way to 
Dutch Harbor. So I appreciate the invitation to testify today 
before your Committee.
    This statement is my recollection of the events surrounding 
the Pen Air crash near Cold Bay that occurred on April 13th of 
1980. I need to be clear and say this statement in no way 
reflects the opinion or the position of the U.S. Coast Guard. 
I'm speaking as an individual.
    In December 1980 I was a Lieutenant and an H3 pilot 
assigned to Coast Guard Air Station Kodiak. I had accumulated 
almost 2,000 hours of helicopter time and was considered an 
experienced Alaska pilot. Two months prior on October 4th, 1980 
I participated in a rescue of 520 passengers from the sinking 
motor vessel, Prinsendam, near the home of the Lieutenant 
Governor, 120 miles offshore of Yakutat, which required a 
multi-national response.
    Up to that point in my career I had responded to several 
plane crashes in Louisiana and Alaska including one, and I'll 
mention the name familiar to you, which is Lynyrd Skynyard 
crash near Jackson, Mississippi, and we were on scene within 20 
minutes and had the survivors to a hospital within 30 minutes.
    This particular case involving the Pen Air crash near Cold 
Bay was the third plane crash that I responded to in my first 
year in Alaska. Coast Guard Air Station Kodiak received notice 
of an overdue Pen Air flight where the pilot and three 
passengers were en route from King Cove to Cold Bay on December 
13th, 1980. The report indicated that Pen Air flew to King Cove 
to medevac a seriously injured fisherman with an amputated 
foot.
    Following the overdue notice satellites picked up an 
emergency locater transmitter, or ELT, somewhere in the 
vicinity of Cold Bay. A helo was launched from Kodiak to Cold 
Bay and searched all day in a heavy snow storm but was unable 
to locate the plane crash.
    Although the ELT was still transmitting, due to the heavy 
snow and low visibility, the crew was just unable to locate the 
crash. While the ELT signal was still transmitting it was 
difficult to pinpoint most likely due to atmospherics. And it 
should be noted at that time there was no GPS. There were no 
night vision goggles. The only navigation equipment was limited 
to Loran C and VOR/DME and in most cases in Alaska visual 
navigation complemented by local knowledge.
    My crew and I were assigned to fly down to Cold Bay in a 
C130 to relieve the first helo crew and continue the search 
after they ran out of crew mission time. Upon arriving in Cold 
Bay we were briefed with the on-scene crew, loaded our gear, 
picked up a state trooper and then took off to search for the 
ELT.
    Although it was still snowing heavily the visibility had 
picked up to just under a mile. And within an hour of searching 
we were able to pinpoint the ELT and, shortly after, spotted 
the plane seven miles from the end of the runway, just seven 
miles from the end of the runway.
    We landed on the tundra, approximately 50 yards from the 
plane crash and the plane appeared to impact the ground in a 
level altitude. There was no indication of fire. The cockpit 
windows and side window were broken but the airplane was mostly 
intact. All the occupants were deceased but still sitting 
upright in their seats. There was no blood or visible trauma to 
any of the victims so their death was obviously the result of 
sudden stoppage and ground impact. The trooper directed us to 
move the bodies which proved difficult and took considerable 
time since they were literally frozen in the seated position. 
After my crew and I extracted the bodies we stacked them on the 
ramp of the helicopter. This is the part that stuck with me.
    I recall later looking back from the cockpit at the tangle 
of arms and legs all pointing in different directions, and 
that's a memory that's lasted 37 years.
    The trooper also requested we move the engine which was 
partly detached. My mechanic removed a few mount bolts, and we 
helped drag the engine to the C130 where we used the hoist to 
lift the engine up.
    Once all the victims and the engine were on board we flew 
the short flight back to Cold Bay and unloaded the bodies and 
the engine. The snow had continued to fall all day and the 
weather was forecasted to deteriorate, so we quickly refueled 
and took off for the four-hour return trip back to Kodiak.
    By the time we got to Port Heiden and I made the right turn 
to follow the river through the Aniakchak Pass to Shelikof 
Straits, it was completely dark and snowing heavily. Again, we 
had no night vision goggles at that time. We had no GPS.
    I had let my co-pilot fly so I could navigate through the 
pass. I'd flown through the Aniakchak Pass on several occasions 
and was familiar with the ground terrain and the general course 
to the west to east transit. On this flight we had to fly 
through the pass at 200 feet in zero/zero visibility, and we 
were at 50 knots just to maintain contact with the ground.
    So once we came through the Shelikof Straits after about a 
25-minute transit we set a course to Sitkinak at the south end 
of Kodiak and then up the east side of Kodiak back to the air 
station in the pitch black. The rest of the flight was 
uneventful.
    At the time of this recovery flight, and it was a recovery 
flight, not a rescue, I was unaware of any efforts to build a 
road to King Cove. But in hindsight this SAR case to recover 
the four crash victims obviously could have been avoided if 
there had been ground transportation between King Cove and Cold 
Bay.
    And the second part that stood out to me, in addition to 
the needless loss of lives, is the risk to the helo crews and 
the C130 crew, who put their lives at risk in heavy snow, high 
winds to locate the crash site and the bodies.
    Thank you for this opportunity.
    [The prepared statement of Mr. Whiddon follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Commander, and again, thank you 
for your service.
    Ms. Whittington-Evans, welcome.

     STATEMENT OF NICOLE WHITTINGTON-EVANS, ALASKA REGIONAL 
                DIRECTOR, THE WILDERNESS SOCIETY

    Ms. Whittington-Evans. Good morning, Chairman Murkowski, 
Ranking Member Cantwell and members of the Committee. I am 
Nicole Whittington-Evans, Alaska Regional Director of the 
Wilderness Society. We represent more than 700 members 
nationwide including many Alaskans who care deeply about how 
the Izembek National Wildlife Refuge and Wilderness Area is 
managed.
    I have worked in the Wilderness Society's Alaska office for 
more than 18 years and have been engaged in the Izembek Refuge 
issue since 1998. I appreciate the invitation to testify before 
the Committee today and would like to start with a short 
history of this incredible place.
    In 1980, 20 years after Izembek had been designated a 
national wildlife range, Congress established the Izembek 
Refuge and Wilderness as part of the Alaska National Interest 
Lands Conservation Act to safeguard the refuge's extraordinary 
land and wildlife. At the center of the over 400,000 acre 
Izembek Refuge are two lagoons which are separated by a narrow 
wildlife corridor. The lagoons make up the ecological heart of 
the refuge and this corridor is critical for caribou, bears and 
wolf migration.
    Most of the world's population of Pacific black brant and 
Emperor geese and a significant portion of the threatened 
Steller's eider population depend on Izembek's habitat. Izembek 
Refuge also contains irreplaceable wetlands of international 
importance as recognized in 1986 as the first wetland area in 
the United States to be designated a wetland of international 
importance under the RAMSAR Convention.
    I have spent time in the Izembek Refuge, walking in the 
wilderness, and have seen the lagoons crowded with Pacific 
Black brant, geese and Steller's eider. This refuge is one of 
the most vital and extraordinary wildlife and wilderness areas 
in the world, and it must remain that way for all Americans to 
enjoy.
    In 1980 Congress designated most of the Izembek refuge as 
wilderness, the highest level of protection afforded to our 
public lands. De-designating it would be a dangerous precedent 
for public lands throughout the United States. It is 
inappropriate to build a road that would bisect the heart of 
the Izembek Refuge, fragment wildlife habitat and significantly 
diminished the value of this wilderness area. It would also 
undermine the very purpose of both the refuge and wilderness 
systems in this country.
    One of the first studies about the proposed road was the 
1985 Bristol Bay Cooperative Management Plan. The findings by 
the Fish and Wildlife Service in that plan are similar to more 
recent analyses by the agency that have found that the road 
would be incompatible with the purposes for which the refuge 
was established. When assessing a proposed road, the Fish and 
Wildlife Service has repeatedly concluded that a road and its 
construction would be incompatible and extremely damaging to 
the refuge.
    In 1998 Congress provided $37.5 million of funding to 
upgrade the local medical clinic, develop dock facilities and a 
road to a dock and purchase, ultimately, a $9 million, all-
weather hovercraft. Thus Congress and American taxpayers have 
already provided a solution for King Cove.
    Respected individuals and organizations have expressed 
their opposition to a road. The Association of Village Council 
Presidents representing 56 Native villages in Western Alaska 
formally opposed the proposed road due to the impacts it would 
have on subsistence resources that they depend on.
    The former U.S. Indian Health Service Medical Director for 
the Eastern Aleutian tribes has said the extreme weather, ice 
and avalanche conditions experienced in the specific area make 
it inconceivable that the proposed 27-mile road could be 
passable.
    And Interior officials from the Bush, Clinton, Ford and 
Nixon Administrations have stated their opposition to the 
proposed road noting it is one of the last places in the 
country that one would ever want to build a road.
    In 2009 the Congress directed the Secretary of the Interior 
to make a determination about whether a road and land exchange 
was in the public's interest. The Fish and Wildlife Service 
conducted a thorough four-year analysis that included more than 
130 stakeholder meetings and consultation with state and local 
government and more than 70,000 comments. The Service 
ultimately rejected the proposed road and land exchange, and 
the Secretary of the Interior then reaffirmed their decision.
    In 2015 the U.S. District Court of Alaska upheld the 
Secretary's decision. And recently the Army Corps of Engineers 
issued a study of alternative transportation options for 
residents of King Cove. The analysis conducted by the Army 
Corps of Engineers confirms what the Wilderness Society, other 
conservation organizations, tribal entities and medical 
professionals, familiar with this area, have stated for 
decades. A road through the heart of fragile, congressionally-
designated wilderness is inappropriate.
    Make no mistake, the Wilderness Society supports the needs 
of the residents of King Cove to have safe, reliable 
transportation options which can and must be achieved while 
protecting the international significant wildlife and 
wilderness values of the Izembek Refuge.
    Thank you again for the opportunity to testify before you 
today.
    [The prepared statement of Ms. Whittington-Evans follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     
    The Chairman. Thank you. Thank you, all.
    We will quickly turn to questions here, and again, try to 
move through them quickly as we do have a vote coming up.
    I want to ask a question of both the Lieutenant Governor 
and to you, Mayor Mack and Ms. Trumble, in terms of support 
because we have just heard from Ms. Whittington-Evans that 
there has been a history within successive administrations in 
opposition to this road, agency officials in opposition to this 
road. I recognize that sitting here in Washington, DC we are 
4,000 some odd miles from where you live and the State of 
Alaska, and oftentimes it is very easy to be opposed to 
something if you have no connection to it.
    The suggestion that the wilderness needs to be there for 
all Americans to enjoy, I think, we understand. We understand 
the principle of that, but we also recognize that something in 
concept and theory is different than those who live in the 
region, exist in the region and raise their families there. It 
has also been mentioned, and we recognize, that AVCP has come 
out in opposition to the road.
    Can you speak to the support for the road from the 
community of King Cove and what level of support we have? Then, 
Lieutenant Governor, if you can address the level of support 
that the state has for construction of this lifesaving road 
that we are talking about?
    Mr. Mack. Thank you, Senator Murkowski, Chairman.
    On behalf of the Alaska Federation of Natives, they're in 
full support of this road and resolutions that were submitted 
prior to the ruling by Secretary Jewell, that they were in 
favor of it. The leaders of the corporations in Alaska are in 
favor of this road. And of course, everyone in the Aleutians 
East Borough and both from the Bristol Bay region are also in 
favor of this road. They can't understand why we don't have it.
    The Chairman. Della, can you speak from the Tribal 
Council's perspective?
    Ms. Trumble. Thank you.
    Yes, all the tribal governments in Alaska do support this. 
We have strong support from the tribal governments in the 
region, Aleutian Pribilof Islands Association, Eastern Aleutian 
tribes that provides the health care in the region. And maybe 
to add to this, I'm also a member on the Kodiak Aleutian 
Federal Subsistence Advisory Council, and in early February we 
met, they had a statewide gathering of all the RACs as we call 
them, regional councils. We met with the AYK groups to discuss 
specifically bird allocations and looking at the potential on 
Emperor geese because there may be some hunts in 2017 that 
they'll open up for sport and subsistence.
    Nothing was ever mentioned in regard to not supporting this 
road from King Cove to Cold Bay. In fact, I've actually heard 
more personal comments directed at me that we really should 
have this road.
    The Chairman. Thank you.
    Lieutenant Governor, from the state's perspective, please?
    Mr. Mallott. Yes. The State of Alaska, the Alaska 
Legislature and the Governor of the State strongly support this 
road.
    I would think I can, with little argument, say that I know 
of no elected state official who is knowledgeable of this 
issue, who does not support it.
    Thank you.
    The Chairman. We recognize that the State of Alaska, in 
terms of its fiscal situation, is in a different place now than 
we have been for some time, and that when we build the road, 
not if we build the road, but when we build the road, there 
will be responsibility to the state, obviously, for some costs.
    Is it fair to say that this road still remains a priority, 
certainly within the Walker/Mallott Administration?
    Mr. Mallott. Absolutely.
    The Chairman. Thank you.
    Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    Ms. Whittington-Evans, the proponents of the road through 
the Izembek National Wildlife Refuge have mentioned that there 
are existing roads within the refuge and that an additional 
gravel road would not have a significant impact on wildlife.
    Do you agree with this assessment of the existing road 
situation, and can you explain specific impacts you believe the 
new road would have?
    Ms. Whittington-Evans. Thank you, Senator Cantwell.
    There are roads that were developed during the second World 
War in the refuge that are outside of the designated wilderness 
area. There are no roads in the designated wilderness area. 
There are some former World War II tracks that have not been 
maintained that are not currently traveled on by vehicles. And 
so, there are no roads in the designated wilderness portion of 
the refuge.
    We believe and Fish and Wildlife Service and others have 
documented that there would be significant impacts from a road 
going through this very narrow wildlife corridor that is 
surrounded by two lagoons, Izembek and Kasegaluk lagoons to the 
north and south. The significant impacts that the Fish and 
Wildlife Service focused on in their latest analysis include 
significant impacts to Black brant, Emperor geese and Tundra 
swans, as well as brown bears. The caribou, which use the 
corridor to travel from one side of the refuge to the other, 
often spend time in the corridor during winter which is a very 
challenging time for reserves, and they certainly would be 
impacted as well with winter travel on the road.
    There has already been ATV trail expanding use coming off 
of the Northeast corner, the 17.2-mile road that goes to the 
Northeast corner of Cold Bay, and that is also something that 
the Fish and Wildlife Service documented in their most recent 
EIS. And there are a lot of concerns about the impacts to 
wetlands and the increased access by humans on these 
populations of wildlife.
    Increased access will definitely impact wildlife including 
the brown bears which are some of the densest that you will 
find anywhere in Alaska.
    There could be competition in the future between sport and 
subsistence users in the refuge as a result of this road. The 
Army Corps of Engineers, for example, in 2003 identified that 
as a potential problem for future subsistence users.
    I want to say one other thing, and that is that tens of 
millions of dollars have already been spent on this issue. As 
you mentioned earlier, there are no great alternatives, but the 
Army Corps of Engineers' most recent report indicated that a 
marine alternative would be 99 percent dependable which is the 
highest of any of the alternatives involved.
    Thank you very much.
    Senator Cantwell. When you are mentioning sport and 
subsistence competition, is that an issue you think exists 
today?
    Ms. Whittington-Evans. I am not aware that that exists 
today as a problem. I think that the wildlife populations are 
very plentiful at Izembek.
    Brant have definitely, I mean, some of these water fowl 
populations have declined over the years and that is, a lot of 
that, is due to the fact that habitat elsewhere, outside of 
Alaska, potentially, has been degraded. But there--I am not 
aware of a current problem between sport and subsistence users, 
but increased access would definitely impact these wildlife 
populations from, you know, from additional hunting going on 
and this could be a problem in the future.
    Senator Cantwell. Thank you.
    Thank you, Madam Chair.
    The Chairman.  Just to follow on Senator Cantwell's 
question.
    You are aware that the terms of this road have been a non-
commercial use road. That is directed to you, Ms. Whittington, 
yes?
    Ms. Whittington-Evans. I am aware of that, yes. Thank you, 
Senator Murkowski. And I also understand that over time that 
type of arrangement can change as it has elsewhere in the 
state.
    The Chairman. Well, I understand that.
    When I was out in King Cove, actually with the Secretary, 
what we heard from some of the Fish and Wildlife folks was 
really quite offensive because they basically asserted that as 
soon as we do this people in King Cove will break the law.
    I am looking at it and I am thinking a people willing to 
move forward with a 300 to 1 exchange, give up their ancestral 
lands for a lifesaving road, are not going to be abusive of the 
opportunity to then access it. I would certainly like to give 
the people the benefit of the doubt, the people that have been 
protecting the environment, the animals and the waterfowl for 
generations.
    I wanted to ask a question to you, Della, about the impact 
to the community over a period of time in dealing with just the 
emotional trauma that comes with living in fear of flying. I 
was particularly struck by it when we were in the clinic and 
looking at the facilities which we have upgraded. I think the 
people of King Cove are proud of the community clinic that they 
have there and the professionals that they have. They wish they 
had a doctor, but you take what you can get. But I was struck 
in talking about the cache of prescription drugs that are 
available to them to dispense as we have in many of our small 
clinics. It is something that is stocked to a limited 
perspective. But the thing that they kept the largest supply on 
hand were anti-anxiety drugs because, I was told, some 70 
percent of the people in the community have an extreme anxiety 
of flying.
    Della, I noted in the picture that you showed where the 
plane had crashed that flew in with your daughter on it, it was 
not a bad weather day as we have been talking about with dense 
fog, the examples that Commander Whiddon mentioned. It was a 
blue sky day, and one would think that if you can see the 
approach you are going to be just fine.
    Is this fear of flying and the anxiety that has been 
created within the community of King Cove? Am I overstating or 
exaggerating in some way? Because I do not intend to be, but 
I'd like to hear from your voice whether this is something 
that, as a community, there truly is that fear.
    Ms. Trumble. Thank you, Senator.
    Yes, there it's a real fear. And those, the 70 percent, can 
be as much as 80 percent.
    What happens is when people know that they're going to have 
to travel, the first thing people do is we start watching the 
weather five days before we're scheduled to fly to figure out 
what kind of weather we're going to be looking at before we 
fly.
    Many people will go to the clinic and we have the 
dispensers that dispense medication. It's just like a candy 
machine is what it looks like, and they dispense two pills, one 
when you leave and one when you're coming back. And it's valium 
or diazepam.
    I never used to technically be afraid to fly until I saw 
that plane crash. I came out and left the other day and I hold 
the bottom of my chair and I pray those 15 minutes to Cold Bay 
and I hold my chair and I pray when I come back to King Cove.
    I've flown with people that scream, that cry, that cuss and 
pray the whole way. It's not a good experience to have to do, 
but it's the reality of what we have to do to get between these 
two communities.
    And many times, to add to that, a lot of people cannot get 
to their medical appointments because they can't get out of 
King Cove or will not fly, period, if they don't like the 
weather report. And so that has to be drawn out to the next 
month or three months, depending if it's a specialty doc. The 
fear of flying in this community is extremely real and it's 
high.
    The Chairman. Let me ask a question of you, Commander 
Whiddon and then, I am afraid, we are going to have to wrap up 
because the vote has already started.
    You are clearly an experienced pilot having flown in some 
difficult conditions. I have been told by some in the Coast 
Guard who fly out in the region that flying into King Cove is 
the least desirable job of a pilot going in and out.
    Now we talk about fear of flying. We have got to fly all 
over the State of Alaska. Why are the conditions in King Cove 
region that much worse than anywhere else that we fly in 
Alaska? Can you speak to that?
    Mr. Whiddon. Thank you, Madam Chair.
    As Mr. Mack mentioned, that area is considered the 
generator of storms. And that's where they, if you watch the 
Alaska news channel every day, you see huge sweeping lows 
coming across there and they all seem to converge in the Cold 
Bay area.
    For Coast Guard crews flying in there, just remember that 
they're only going to fly in there if commercial aviation 
cannot get in there which means it's going to be extreme 
weather or nighttime and--
    The Chairman. So just repeat that again because I think 
that this is important. They only come in when nobody else can.
    Mr. Whiddon. Exactly.
    The Chairman. So they are the last line of safety.
    Mr. Whiddon. And if I may add just one other thing. When 
you put your map up, or your chart up there, the Coast Guard 
pilots, I'm sure it's still the same, get what's called Alaska-
qualified. When you come to Alaska you have a 90-day period to 
become Alaska-qualified which means you get to see some of the 
places. King Cove is not on the list. Never was on the list.
    So if you do fly into King Cove it might be the first time 
you ever go in there and it would be at night or in bad 
weather. And even if you've been in there once or twice during 
a three-year tour in Kodiak, you'll never go in there enough to 
know how to get in there and under adverse conditions.
    So it's always going to be extremely dangerous for any 
Coast Guard crew to go in there whether they come in from the 
Gulf side or they come in from the Cold Bay side.
    The Chairman. So the study that the Corps conducted at the 
request of the Interior Department without looking at a road 
alternative, is it correct, Mayor Mack, that no one in the 
community leadership either of the borough or tribal was 
brought in as a part or any level of consultation in that study 
that was conducted?
    Mr. Mack. Madam Chairman, yes, we have never been a part of 
any review or research in regard to information regarding the 
marine link and any other link by the Corps of Engineers or any 
other organization that did some study.
    I know there was a study done by Johns Hopkins University, 
and that study was never brought to our attention for any kind 
of input, and we've never been part of it, no.
    The Chairman. And on the Tribal Council side?
    Ms. Trumble. Yes, that's correct. We were never consulted 
at any point in time during the course of that.
    The Chairman. Yet what we have seen as an outcome of that 
report were three recommendations: a new marine craft, the 
potential for a helo base, and an alternative road, route on 
the water with a dock. All options that have been either tried 
before or studied before and have been rejected. Correct?
    Mr. Mack. That is correct.
    The Chairman. So nothing new from this?
    Mr. Mack. There has been nothing new, no.
    There are times when the ferry, Alaska State Ferry, cannot 
even get into King Cove because of weather conditions, let 
alone try to get to Cold Bay. So that marine link is totally 
out of it.
    As you can see in some of the pictures that we showed, the 
icy conditions and the wave conditions in Cold Bay would--and 
that was a hundred-foot crab boat that fished the Bering Sea 
that could not get to the dock with that patient on board.
    The Chairman. My last question.
    The Secretary has indicated that she was going to do 
something to help the people of King Cove. To your knowledge, 
to this date, have we seen anything from the Department that 
has indicated she is going to work to provide a reliable route 
to safety for the people of King Cove?
    Della?
    Ms. Trumble. Senator, we have not heard at all from the 
Secretary since I know you got the phone call in 2013 and I had 
a message on my phone in 2013. We have had no communication 
with her since then.
    The Chairman. Well, I want to thank each of you for being 
here today.
    Lieutenant Governor, I thank you for your eloquent 
statement at the beginning of the hearing that really begs an 
Administration to listen to the people.
    We do have a responsibility to the land. We recognize that. 
We have a responsibility for the animals and the birds that fly 
over our land, but we also have a responsibility to our people. 
Oftentimes when I think about endangered species I would agree 
with your suggestion that sometimes the most vulnerable of the 
species is man. And so recognizing our responsibility to one 
another is something that must be at the forefront.
    Know that what you have given the Committee today through 
your testimony, your words, your voice to the people, is 
greatly appreciated. Know that I stand with you in this long, 
long fight and will stand with you until we have addressed the 
health and the safety of the fine people of King Cove and 
within the region.
    Thank you for your advocacy and thank you for appearing 
before the Committee.
    With that, we stand adjourned.
    [Whereupon, at 10:46 a.m. the hearing was adjourned.]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
                 [all]
                 
                 
                 
</pre></body></html>
